<html>
<title> - COMPREHENSIVE IMMIGRATION REFORM: GOVERNMENT PERSPECTIVES ON IMMIGRATION STATISTICS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
     COMPREHENSIVE IMMIGRATION REFORM: GOVERNMENT PERSPECTIVES ON 
                         IMMIGRATION STATISTICS

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                CITIZENSHIP, REFUGEES, BORDER SECURITY,
                         AND INTERNATIONAL LAW

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 6, 2007

                               __________

                           Serial No. 110-42

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov



                     U.S. GOVERNMENT PRINTING OFFICE

35-859 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. SCOTT, Virginia            HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      CHRIS CANNON, Utah
WILLIAM D. DELAHUNT, Massachusetts   RIC KELLER, Florida
ROBERT WEXLER, Florida               DARRELL ISSA, California
LINDA T. SANCHEZ, California         MIKE PENCE, Indiana
STEVE COHEN, Tennessee               J. RANDY FORBES, Virginia
HANK JOHNSON, Georgia                STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel
                                 ------                                

          Subcommittee on Immigration, Citizenship, Refugees, 
                 Border Security, and International Law

                  ZOE LOFGREN, California, Chairwoman

LUIS V. GUTIERREZ, Illinois          STEVE KING, Iowa
HOWARD L. BERMAN, California         ELTON GALLEGLY, California
SHEILA JACKSON LEE, Texas            BOB GOODLATTE, Virginia
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      J. RANDY FORBES, Virginia
WILLIAM D. DELAHUNT, Massachusetts   LOUIE GOHMERT, Texas
LINDA T. SANCHEZ, California
ARTUR DAVIS, Alabama
KEITH ELLISON, Minnesota

                    Ur Mendoza Jaddou, Chief Counsel

                    George Fishman, Minority Counsel


                            C O N T E N T S

                              ----------                              

                              JUNE 6, 2007

                                                                   Page

                           OPENING STATEMENT

The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Chairwoman, Subcommittee on 
  Immigration, Citizenship, Refugees, Border Security, and 
  International Law..............................................     1
The Honorable Steve King, a Representative in Congress from the 
  State of Iowa, and Ranking Member, Subcommittee on Immigration, 
  Citizenship, Refugees, Border Security, and International Law..     2
The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas, and Ranking Member, Committee on the Judiciary.     8

                               WITNESSES

The Honorable Dana Rohrabacher, a Representative in Congress from 
  the State of California
  Oral Testimony.................................................     4
The Honorable Joseph Crowley, a Representative in Congress from 
  the State of New York
  Oral Testimony.................................................     6
Ms. Ruth Ellen Wasem, Ph.D., Specialist in Immigration Policy, 
  Congressional Research Service
  Oral Testimony.................................................    18
  Prepared Statement.............................................    21
Mr. Ronald Bird, Ph.D., Chief Economist and Director, Office of 
  Economic Policy and Analysis, U.S. Department of Labor
  Oral Testimony.................................................    46
  Prepared Statement.............................................    48
Mr. Michael Hoefer, Director of the Office of Immigration 
  Statistics (OIS), U.S. Department of Homeland Security
  Oral Testimony.................................................    54
  Prepared Statement.............................................    56
Mr. Charles Oppenheim, Chief, Visa Control and Reporting 
  Division, U.S. Department of State
  Oral Testimony.................................................    62
  Prepared Statement.............................................    64

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Chairwoman, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................     2

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................    83
Letter to the Honorable Zoe Lofgren, Chairwoman, Subcommittee on 
  Immigration, Citizenship, Refugees, Border Security, and 
  International Law, from a majority of the minority Members of 
  the Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law requesting a Minority day of 
  hearing........................................................    85
Prepared Statement of the the Honorable Dana Rohrabacher, a 
  Representative in Congress from the State of California........    86
Prepared Statement of the Honorable Joseph Crowley, a 
  Representative in Congress from the State of New York..........    87
``Senate Amendment 1150 to S. 1348, the Comprehensive Immigration 
  Reform Act of 2007, As amended by the Senate through May 24, 
  2007,'' a Congressional Budget Office Cost Estimate, published 
  June 4, 2007, submitted by the Honorable Zoe Lofgren...........    89
``Helping Immigrants Become New Americans: Communities Discuss 
  the Issues,'' published by the U.S. Citizenship and Immigration 
  Services, submitted by the Honorable Steve King................   133
Answers to Post-Hearing Questions from Ruth Ellen Wasem, Ph.D., 
  Specialist in Immigration Policy, Congressional Research 
  Service........................................................   153
Answers to Post-Hearing Questions from Ronald Bird, Ph.D., Chief 
  Economist and Director of the Office of Economic Policy and 
  Analysis, U.S. Department of Labor.............................   170
Answers to Post-Hearing Questions from Michael Hoefer, Director 
  of the Office of Immigration Statistics (OIS), U.S. Department 
  of Homeland Security, with Addendum............................   182
Answers to Post-hearing Questions from Charles Oppenheim, Chief, 
  Visa Control and Reporting Division, U.S. Department of State..   230
Additional Answer to Question posed during the Hearing by the 
  Honorable Zoe Lofgren from Charles Oppenheim, Chief, Visa 
  Control and Reporting Division, U.S. Department of State.......   238


     COMPREHENSIVE IMMIGRATION REFORM: GOVERNMENT PERSPECTIVES ON 
                         IMMIGRATION STATISTICS

                              ----------                              


                        WEDNESDAY, JUNE 6, 2007

                  House of Representatives,
Subcommittee on Immigration, Citizenship, Refugees, 
             Border Security, and International Law
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:47 p.m., in 
Room 2141, Rayburn House Office Building, the Honorable Zoe 
Lofgren (Chairwoman of the Subcommittee) presiding.
    Present: Representatives Lofgren, Gutierrez, Berman, 
Jackson Lee, Delahunt, Sanchez, Davis, Ellison, King, Lungren, 
and Smith.
    Staff present: Ur Mendoza Jaddou, Chief Counsel; R. Blake 
Chisam, Majority Counsel; George Fishman, Minority Counsel; and 
Benjamin Staub, Professional Staff Member.
    Ms. Lofgren. The Subcommittee hearing will now come to 
order.
    We have had a series of hearings, beginning at Ellis 
Island, examining comprehensive immigration reform, looking at 
the issues from 1986 and 1996 in an effort to avoid mistakes of 
the past.
    We have considered current employment workplace 
verification systems, family priorities in immigration, and the 
proposed point system that the Senate is looking at. We have 
looked at the cost of immigration on States and localities. We 
have held hearings on the integration of immigrants, the future 
of undocumented immigrant students in the United States, heard 
from stakeholders in the immigrant community, labor unions, the 
business community, and much of the debate has been around 
numbers.
    So this is a hearing where we are going to hear from 
Government witnesses about the numbers: How many illegal 
immigrants are here? How big is the backlog? How many 
occupations does the Government project there are or will be 
shortages in? How many potential immigrants with pending 
immigration petitions are outside the United States?
    There are important questions, and we hope to get answers 
from the two panels.
    We are really very blessed to have two of our colleagues 
who are here, but before we go to them I would just like to ask 
the Ranking Member if he has a statement he would like to offer 
for the record.
    [The prepared statement of Ms. Lofgren follows:]
 Prepared Statement of the Honorable Zoe Lofgren, a Representative in 
Congress from the State of California, and Chairwoman, Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and International 
                                  Law
    I would like to welcome the Immigration Subcommittee Members, our 
witnesses, and members of the public to the Subcommittee's fifteenth 
hearing on comprehensive immigration reform.
    Our series of hearings on comprehensive immigration reform began at 
Ellis Island, where we examined the need for comprehensive immigration 
reform to secure our borders, to address economic and demographic 
concerns, and there we reviewed our nation's rich immigrant history. We 
have studied immigration reform from 1986 and 1996 in an effort to 
avoid the mistakes of the past. We've considered the problems with and 
proposed solutions for our current employment and worksite verification 
system. In light of the recent Senate immigration agreement to 
eliminate family priorities in immigration and replace those priorities 
with a completely new and untested point system, we studied the 
contributions of family immigrants to America and various immigration 
point systems used around the world. We have explored the costs of 
immigration on our states and localities. We've held hearings to 
explore the importance of immigrant integration and the future of 
undocumented immigrant students in the United States. Before the 
recess, we heard from numerous groups of stakeholders and labor unions 
about their concerns about immigration reform.
    Just this morning we listened to the perspectives of business 
groups.
    This afternoon, in the last of our hearings on comprehensive 
immigration reform, we will get the government's numbers.
    Much of the debate about comprehensive immigration reform revolves 
around numbers. How many illegal immigrants are there? How big is the 
current immigration backlog? How many occupations does the government 
project there are or will be shortages in? How many potential 
immigrants with pending immigration petitions are outside the U.S.?
    These are important questions. To draft comprehensive immigration 
reform legislation and to answer the inevitable questions about that 
legislation, the Subcommittee needs to hear from knowledgeable 
government witnesses about the statistics the government keeps.
    This hearing will allow the Subcommittee to learn what the numbers 
are. Witnesses from the Administration and the Congressional Research 
Service will help us to get the facts and figures we all need to make 
the judgments and assumptions necessary to do immigration reform right.
    From these numbers, we should be able to better make the policy 
judgments necessary to evaluate the different comprehensive immigration 
reform proposals.
    Thank you again to our distinguished witnesses for being here today 
to help us sort through what is a complex and very important issue.

    Mr. King. Thank you, Madam Chair. I, like you, appreciate 
the witnesses that are here today.
    I will begin my remarks by expressing disappointment about 
the procedure surrounding witness selection for today's 
hearing. While I appreciate the willingness of the witnesses 
who are here to testify, I am disappointed in the fact that the 
minority was required to invite only Government witnesses here 
to testify. There is no precedent for this, and there will be 
no precedent for this.
    Unfortunately, today is not the first time that we have had 
our witnesses dictated by the majority. The same thing occurred 
on May 3rd on a different hearing.
    And so, in response to the decree about minority witnesses 
and their identity and to ensure that both sides of this issue 
are publicly examined, just as I did on May 3rd and pursuant to 
House Rule 11, I now request a minority day of hearing to be 
able to address this subject matter from a minority 
perspective.
    And I present a letter to you, Madam Chair.
    Regarding the subject at hand, immigration statistics is a 
vast issue area. Many immigration-related numbers and 
statistics are circulated by Government sources and private 
entities each day. I would like to list some of those numbers.
    Nineteen thousand five hundred and eighty-eight dollars 
($19,588): That is the amount each low-skilled immigrant 
household costs American taxpayers per year, according to The 
Heritage Foundation.
    Two and a half trillion dollars ($2.5 trillion dollars): 
the amount of net retirement costs, or benefits minus taxes, to 
American taxpayers if all the current adult illegal immigrants 
in the United States were granted amnesty, according to The 
Heritage Foundation senior research fellow Robert Rector.
    Zero: another number, the number of final orders issued to 
employers for hiring illegal immigrants in 2004. Zero 
enforcement.
    Ten: the number of final orders issued for hiring illegal 
immigrants in 2005. Working a little better.
    Three: the number of illegal immigrants in the Fort Dix 
Six, the group arrested while planning to murder American 
soldiers at Fort Dix, New Jersey.
    Two hundred seven billion, one hundred million dollars 
($207.1 billion): the amount estimated by TREA Senior Citizens 
League that a Social Security totalization agreement with 
Mexico would cost American taxpayers by the year 2040. That is 
$207.1 billion.
    One hundred eight thousand and twenty-five (108,025): the 
number of OTMs, ``other than Mexicans,'' from countries like 
Pakistan, Syria, Iran that were apprehended on the U.S.-Mexican 
border by Border Patrol while trying to illegally cross into 
the United States.
    Twenty-five million (25 million): the number of pounds of 
trash estimated by the Bureau of Land Management to have been 
left along the Arizona-Mexico border by illegal immigrants 
crossing into the United States--25 million pounds.
    Seventy-eight and six tenths (78.6): the number of miles of 
vehicle barrier that have been built along the 2,000 mile U.S.-
Mexican border as of May 24th of this year.
    Eighty-seven and two tenths (87.2): the number of miles of 
fencing that have been built along the southern border up to 
May 25th of this year.
    Sixty-nine million (69 million): That is the number of 
people in the United States of working age who are simply not 
in the workforce.
    One million, two hundred and sixth-six thousand, two 
hundred and sixty-four (1,266,264): That is the number of 
lawful permanent residents admitted to the United States in 
2006, more than any other country in the world.
    The statistics I have listed are particularly interesting 
since they prove that the United States is generous with its 
immigration policy, that the United States has an enormous 
problem with illegal immigration, that the United States has 
not in many years had an Administration interested in enforcing 
immigration laws, that the United States is vulnerable to 
another terrorist attack and that we must end illegal 
immigration.
    With that, Madam Chair, I look forward to the witnesses' 
testimony. And I appreciate your acceptance and ask unanimous 
consent that the letter be introduced into the record as well.
    And I yield back the balance of my time.
    Ms. Lofgren. The gentleman's time has expired. The letter 
is received and will be dealt with according to the rules.
    [The letter referred to is inserted in the Appendix.]
    Ms. Lofgren. The hearing before us will really be to get a 
handle on answers. And before we go to our more traditional 
Government witnesses, we are very honored to be joined by two 
of our colleagues here today.
    Thank you for putting up with the business part of our 
meeting.
    And I am going to go in order of seniority here.
    The minority's witness is the gentleman from California, 
Congressman Dana Rohrabacher. Congressman Rohrabacher, my 
colleague from California, represents the 46th Congressional 
District. A senior member of the Foreign Affairs and Science 
Committees, Congressman Rohrabacher came to Congress after 
serving as a special assistant and speechwriter to President 
Reagan. He earned his bachelor's degree from Long Beach State 
College and his master's degree from the University of Southern 
California. And he and his wife Rhonda became the proud parents 
of triplets in April 2004. And I invite you to ask him to see 
the pictures, as I have. It is a wonderful thing.
    We are also joined by our colleague, Congressman Joe 
Crowley, the representative from New York's 7th Congressional 
District, who is serving his fifth term here in the House. 
After graduating from Queens College, he won a seat in the New 
York State Assembly at the age of 24 years old. After 12 years 
of service in Albany, he was elected in 1998 to serve with us 
in the House of Representatives. A Member of the Committee of 
Ways and Means and the Committee on Foreign Affairs, 
Congressman Crowley is the only Member of Congress to have lost 
a member of his family in the terrorist attacks of September 
11. He and his wife Casey have three wonderful children: Colin, 
Kensey Louise, and Liam. And you can also ask him to see the 
pictures.
    We are very pleased to have you both here. You know the 
drill. Your full statements are part of the record. We ask you 
to try and summarize in about 5 minutes.
    We are going to ask other Members to put their opening 
statements into the record, and we will reserve time for Mr. 
Conyers or Mr. Smith if they come.
    At this point, we would turn to Dana and then to Joe.

 TESTIMONY OF THE HONORABLE DANA ROHRABACHER, A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Rohrabacher. Thank you very much, and I appreciate the 
opportunity to testify.
    Whereas reliable statistics on illegal immigration are 
notoriously hard to come by and to verify, so such a discussion 
as this is very beneficial.
    Contrary to the image many are trying to promote, illegal 
immigration has had a devastating impact on Social Security. 
More than half of illegal immigrants in our country work for 
cash under the table. So these illegal immigrants do not pay 
into the Social Security system. And since they are paid in 
cash, the employers do not pay their part of the contribution 
into the Social Security system either.
    Another negative effect is that jobs which would have been 
filled by American citizens or legal immigrants are taken away. 
Without a pool of available illegal immigrants, employers would 
be forced to hire legal applicants and cover them under Social 
Security.
    So Americans are losing jobs to illegals who aren't paying 
their fair share into the Social Security system.
    Corresponding to this, a flow of illegal labor into our 
country brings down wages in general. Employers who might have 
paid $10 to $12 an hour now pay lower wages, which then results 
in lower contributions to the Social Security system.
    There are those, of course, who would think the solution is 
to legalize all of those who are illegally in the United States 
and they believe that this would solve the Social Security 
crisis. In fact, legalizing the status of those here illegally 
will make the Social Security challenge facing America 
dramatically worse. Any plan that specifically gives Social 
Security to those who have been working in this country and 
have been working here illegally is an invitation to fraud on a 
massive scale.
    What would stop anyone from claiming that they worked here 
under a false Social Security number? Hundreds of thousands of 
people pay into Social Security under phony numbers, especially 
the number 000-00-0000. How can one prove who it was that used 
a fraudulent Social Security number and who did not use that? 
So it lends itself to even more fraud.
    We already have a huge problem with identity theft and 
fraudulent identification. Allowing those who have worked 
illegally in the United States to participate in Social 
Security exponentially increases the incentive for fraud. And 
of course, we already know that the people who have been 
working here are willing to commit identity fraud, because that 
is how they got the jobs that they are working here in the 
first place, all of those who are not working under the table, 
and even some of them who are working under the table.
    Another overlooked consequence is the survivors' benefit 
and disability aspect of Social Security. What would stop 
anyone from claiming, ``My spouse worked there under a false 
number, I am the widow, these are my children, start sending 
the survivors' benefits that we are entitled to''?
    Remember, billions of people around the world have no 
retirement system whatsoever. So why assume that only younger 
immigrants are going to come here to the United States? Why 
wouldn't someone in their 50's think, ``I could work in the 
United States for 10 years, and Social Security payments would 
let me live very well in my own country''?
    Furthermore, many people will now be legalized under 
several different proposals who are poor and low-skilled. In 
fact, over half the illegal immigrants coming into our country 
don't even have a high school education.
    The inconvenient fact is that Social Security pays out more 
benefits proportionally to lower-wage workers than to higher-
paid workers. Thus the projections that I have seen from Social 
Security assumes that immigrants who are coming in have the 
same earning potential as Americans. Well, that is just not 
true.
    What we have got here is people pouring in who are poorer, 
who will then be receiving more Social Security benefits than 
they are putting in, which is a huge threat to the viability of 
the Social Security system in the long run.
    The last and most significant point is this. In 1986, after 
being told that we would be legalizing about 1 million people, 
3 million illegal immigrants ended up being granted amnesty. It 
is now 20 years later, and the current illegal immigrant 
estimates range from 12 million to 20 million people here 
illegally. The 20 million figure comes not from a Government 
source, but from a private study conducted on the monies that 
are sent back through remittances to other countries.
    Is there any doubt that legalizing the status of those who 
come here illegally will result in a flood of new illegal 
immigrants into our country? Permitting these legalized 
immigrants into the Social Security system will turbo-charge 
the flood of illegals into our country. If we legalize 12 
million to 20 million now, there will be 45 million to 60 
million here in 2027.
    No fence, no wall, no minefield, no system will keep the 
illegal aliens out of this country if we give them a reasonable 
hope that they will receive Government benefits, including 
retirement, and it can be theirs if they just get across the 
U.S. border and wait us out.
    Under such a strain, our Social Security system will not 
survive. It will collapse. Being irrationally benevolent to 
illegals is a crime against our own people.
    And I would like to submit a written statement for the 
record.\1\
---------------------------------------------------------------------------
    \1\ The Subcommittee had not received a written statement at the 
time of the printing of this hearing,
---------------------------------------------------------------------------
    Ms. Lofgren. Of course. Thank you, Congressman Rohrabacher.
    We will turn now to our colleague Joe Crowley, with special 
thanks. The Chairman of the Ways and Means Committee had a 
scheduling conflict, and his colleague on the Committee stepped 
into the breach.
    So, Joe, you are now recognized for 5 minutes.

TESTIMONY OF THE HONORABLE JOSEPH CROWLEY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Crowley. Thank you for inviting me here today.
    As you point out, I have a particular interest in the issue 
of immigration as the son of an immigrant as well as the 
grandson of immigrants. And as duly noted by the leadership on 
our side, Whip Clyburn has appointed me as Chief Deputy Whip to 
work on this particular issue. So I am very happy to be here 
today to speak on this issue.
    I believe very strongly in it as well, and I think I have a 
more optimistic view of the contributions of immigrants to the 
United States economically. And I think it is about looking 
forward, not looking backwards, and maybe not even looking at 
where we are today but looking at where we are going to be in a 
number of years to come.
    And I am also not here today to make points or criticize in 
any way the Senate bill that they are working through right 
now. It is my hope that they do act on something and don't 
retreat but move forward and actually pass something, so we can 
then take something up here, move to a conference and get real, 
comprehensive immigration reform passed.
    But I would point out to the Committee that the CBR report 
shows that comprehensive immigration reform is essential to the 
growth of our economy, and this is why. It is imperative we 
pass a comprehensive immigration reform this year in order to 
secure our borders, sustain a strong economic future for the 
United States and ensure that our country remains a haven for 
those who seek freedom, opportunity and a better way of life 
for themselves and for their families.
    Immigration does not necessarily have to be a drain on the 
economy, as many would have you believe. Immigrants are not a 
drain on taxpayers in the economy. In fact, they improve many 
aspects of our economy, adding to job creation, increasing our 
national revenue, and increasing, for example, the revenue 
going into Social Security and our Social Security fund.
    Look at the jobs they fill, the money they spend, the jobs 
they create. They are essential to our Nation's future 
prosperity. An immigrant may take a job that in turn leads to 
the creation of a job, or two jobs, or three jobs. So we are 
not talking about a fixed pie here.
    At the Summit on Retirement Savings hosted by the United 
States Department of Labor, Alan Greenspan stated, ``The larger 
our workforce is in the year 2010 and beyond, the easier 
producing goods and services for both retirees and active 
workers will be. Immigration policy will therefore be a key 
component of baby-boom retirement policy.''
    For example, people are not joining the workforce at the 
same rate as they were in the 1950's during the baby-boom era. 
Passing comprehensive immigration reform is necessary because 
it will allow more individuals to join the workforce legally 
and to add to our economy and the benefits that we all enjoy.
    This year it was widely reported that undocumented 
immigrants in New York and throughout our Nation filed taxes in 
record numbers to start a paper trail with the prospect of 
Congress overhauling our immigration system. This only proves 
that comprehensive immigration reform holds the promise of 
getting more individuals, even those without documentation, to 
voluntarily pay into the system rather than remain an invisible 
part and outside of that system.
    Undocumented immigrant workers already pay an estimated $7 
billion a year into the Social Security system. There can be no 
better incentive than a common-sense immigration policy to 
encourage more individuals to pay taxes in the hope of getting 
a foothold in the climb toward naturalization.
    Granted, I do agree that some of the undocumented illegal 
workers today are paid off the books. Some use false Social 
Security numbers. Others use false taxpayer I.D. numbers to pay 
into a system that they will not necessarily get a benefit from 
in the future.
    No one has yet figured out a way in which we compensate 
those who have already contributed toward the Social Security 
system who are undocumented here in the United States today.
    Immigration will be the primary source of new skilled 
workers for manufacturing, filling 10 million new jobs by the 
year 2020. An inadequate labor force would accelerate the 
transfer of American productive capacity and well-paid 
manufacturing jobs overseas. Regardless of what Lou Dobbs says, 
it is not speak in facts but pedals fear.
    Look at my district, for instance. Look at my city. It is 
full of foreign corporations hiring Americans and immigrants 
assimilating in and being a boom to our economy. Failure to 
attract enough labor through immigration will result in lower 
gross domestic product growth by at least 3 percent in 10 years 
and at least 17 percent in 30 years.
    Immigrants are crucial to jobs and the labor force. Growth 
in the 1990's in the new economy of the last decade has 
overwhelmingly depended on male immigrant workers. That is also 
from Mr. Greenspan.
    So in the end, Madam Chair, I applaud the work that you are 
doing trying to develop comprehensive immigration reform that 
takes into account the integrity of our borders, the need to 
end illegal immigration as we know it today, but also bring 
about a practical approach toward comprehensive immigration 
reform that will improve the economy of the United States and 
also the lives of the millions who are undocumented here today 
who want nothing more than a better way of life for themselves, 
for their families, and for all Americans.
    And with that, I will have more formal testimony submitted 
for the record.
    [The prepared statement of Mr. Crowley is inserted in the 
Appendix.]
    Ms. Lofgren. Thank you.
    Without objection, both statements are submitted for the 
record.
    Let me ask you this, I know how busy everybody's schedule 
is. We ordinarily go to questions. If you have other 
obligations, we will happily say goodbye. Or if you are able--
okay.
    Why don't we do this? We will start with questions, and 
then if you have conflicts, we understand, and you can leave 
whenever you need to.
    Mr. Crowley. And if I don't like the question I can just 
leave.
    Ms. Lofgren. That is right. [Laughter.]
    Let me start, if I can.
    That is right. The Ranking Member is correct. I did reserve 
the right for both the Chairman and Ranking Member to give 
their opening statements. And I need to recognize the Ranking 
Member of the full Committee at this time.
    Mr. Smith. Madam Chair, thank you for letting me go out of 
order. I appreciate you and Ranking Member King in doing so. I 
will only take 1 minute, because I know there is limited time 
on the part of our witnesses, and I know Members have 
questions.
    I just want to make a couple of comments and, on the way 
there, also compliment you, Madam Chair, on being such an 
activist Chairwoman. You have set the record and set the pace 
for a number of meetings and a number of hearings, and it is 
all for good effect, I believe.
    I want to follow up on what Mr. Rohrabacher said. And I 
appreciate his testimony as well.
    He made the statement, which is absolutely accurate, that 
over half of all immigrants do not have a high school 
education. When we talk about the impact of immigrants, for 
instance on Social Security, I think we need to differentiate 
between those immigrants who have no high school education and 
those who do have, say, a college education or above. Their 
contributions into Social Security and what they get from 
Social Security are obviously going to be different.
    And I know later on you are going to have a witness from 
the Social Security Administration. I hope that they will say 
in open court today what they told me on the phone a year ago, 
and I hope they haven't changed their testimony since that 
time.
    The discussions I had with the Social Security 
Administration a year ago were that if you took the median age 
of an immigrant who did not have a high school education--and 
we are talking about over half of all immigrants--and you 
looked at the wages that they averaged, which was less than 
$30,000, over their lifetime they would get back more than 
$100,000 more than they contributed into the Social Security 
trust fund.
    Therefore, every immigrant that does not have a high school 
education is actually contributing to the destabilization and 
financial insolvency of the Social Security Administration over 
time.
    We ought to just differentiate between those who contribute 
and have a net positive impact on Social Security and those who 
are actually going to be getting back over $100,000 more than 
they put in.
    Lastly, when we had more time, I would comment further on 
the impact of immigration on jobs, but every credible study I 
have seen shows that it has a negative impact, particularly on 
blue-collar workers in America and disproportionately on 
minorities and those without a high school education. Those 
individuals are the ones that unfortunately see their wages 
decline, and there is literally a race to the bottom as to how 
little they can be paid.
    And so I think when we go forward, Madam Chair, we ought to 
take into consideration the adverse impact of those immigrants 
on our American workers. I yearn for a national leader who will 
stand up for the American workers.
    Thank you, Madam Chair, and I yield back.
    Ms. Lofgren. The gentleman yields back. Now we will return 
to our colleagues for brief questions.
    I, obviously, no matter what conclusions we have reached on 
the subject, I believe that all of us, as Members of Congress, 
want the best thing for our country. I mean, I don't know of 
any Member of Congress who has come here trying to do something 
other than the best thing for our country. But we have a 
variety of pieces of information before us and are reaching 
conclusions based on that information and, in some cases, see 
the information in a different way.
    We asked the Congressional Research Service a series of 
questions, and, without objection, I will make all of their 
answers a part of the record.
    [The information referred to is inserted in the Appendix.]
    Ms. Lofgren. But one of the things that the CRS report--and 
I think they are actually quoting the trustee's report from 
Social Security. On page 15 of the report, they say that, as 
immigration increases, program cost rates decrease. And in a 
25-year period, 2007-2031, with a net immigration per year of 
672,500, the cost rate is 14.26. If you go up to 900,000, it is 
14.3. If it is 1.3 million, it is 3.96.
    And they base that assumption, really, on that immigrants 
tend to be young. And thinking back to Ellis Island, our first 
hearing, what they were looking for at Ellis Island in that big 
period was they were looking for young, healthy people who 
wanted to work and who wanted to come and be Americans.
    I think a hundred years have passed and, really, we are 
kind of looking for the same thing: people with enough get-up-
and-go to get up and go and get here and work and make 
something for themselves and their family and, in the process, 
they make something for America. And I think that is reflected 
in the Social Security trustees' report.
    I don't know, Mr. Crowley, if you have or not--you are kind 
of a pinch-hitter here--whether you have had a chance to take a 
look at the trustees' report, but certainly the CBO analysis 
that shows a net financial benefit of this immigration, the 
report that they have just released--which, without objection, 
I will also make a part of the record--would seem to show that.
    [The report referred to is inserted in the Appendix.]
    Mr. Crowley. I haven't read the trustees' report, but I 
have looked over the summary of the CBO report, which does, 
although different years, I believe, does demonstrate the same 
outcome, and that is that benefit to the coffers of the United 
States.
    I also think it is important to have, of the notion that if 
somehow the 12-million-plus undocumented illegals that are here 
today were to evaporate, who would fill the jobs that would 
then be created by them.
    Clearly--at least in my experience, it has been clear for 
me--the overwhelming number of immigrants who come to the 
United States today are not different than immigrants who came 
in the past, in the sense that their overwhelming drive is to 
improve their state of life and for their families as well.
    They take tremendous risks to come here. They leave family 
members behind, and many of them who have been living here in 
an undocumented fashion have been out of physical contact with 
their loved ones for many, many years. That strength, that 
courage and that drive is something that I think we as 
Americans want on our side, want on our team.
    So I know there are many who would attack those same 
individuals and say we don't want them, whatever the reason is. 
But I think they do add tremendously to the value of our 
society. The overwhelming majority are looking to contribute 
and want to contribute in a more full way, and that is as full 
legal citizens.
    And I would only add that not only are they right now not 
able to have a legal job, they can't live in a legal apartment, 
they can't live really in a legal society. They live in a 
subculture or a Black-market society. And I think it is better 
for all of us.
    I am concerned about terrorism. I am concerned about people 
being exploited. What better way to make them unexploitable 
than by giving them the ability to come out into the light of 
day and be a more practical part of our society? Right now they 
don't have that opportunity, and that is what I would like to 
see change more than anything else.
    Mr. Rohrabacher. I would suggest, number one, we are not 
talking about immigration here. We are talking about illegal 
immigration. Because no one would certainly disagree with the 
sentiments just expressed about how immigrants have contributed 
to our societies and the great things they have done, the 
wonderful people they generally have been.
    We are talking about illegal immigration here. That is a 
different issue. We bring in more legal immigrants than all the 
rest of the world combined, so we have no apologies to make 
that we open up our borders to legal immigrants. What do we do 
with the 15 million to 20 million people who are here 
illegally?
    The CBO report that you are talking about, or the CRA 
report, that suggest that, for example, about the Social 
Security situation, that is assuming that the people who have 
come here as illegals have the same earning power as the 
average Americans workers does. Now, I am sorry, their 
assumption is wrong.
    Ms. Lofgren. No, actually, I don't think that is the case. 
It is not fair. I have the report, and I will give it to you, 
Dana.
    Mr. Rohrabacher. I think my staff did take my statistics 
from that as well.
    Ms. Lofgren. On page 15.
    Mr. Rohrabacher. But let's then take what common sense 
tells you. If we take the 15 million to 20 million people who 
are here illegally, we legalize their status and then say, 
``The people who are here illegally, who came here illegally 
but now are legalized are now eligible to become part of the 
Social Security system,'' what is to say that those 100 million 
people or 200 million or even more people who would take a 
message from that across the world who are 50 years old and 
say, ``My gosh, if I can get to the United States, they have 
already legalized these other people and made them eligible for 
Social Security, I will have a retirement''?
    Ms. Lofgren. My time is expired. One of the jobs of the 
Chairperson is to set a good example for staying within the 
time frame.
    I will just say, whether the United States should apologize 
is not the question. We are trying to find out what is in the 
best interest of America. That is the question for me.
    Mr. Rohrabacher. Right.
    Ms. Lofgren. I would yield now to the Ranking Member for 
his 5 minutes.
    Mr. King. Thank you, Madam Chair.
    I think that we need to have far more discussion about the 
long-term implications of what may happen in this Congress this 
year.
    I do appreciate both of your testimony, to be here today 
and to sit and answer questions as well.
    Mr. Crowley, you made a comment that piqued my interest. I 
haven't had an opportunity, of course, to review the testimony 
of either, which means I have to pay attention, which is a good 
thing. But I am wondering, from a background perspective, could 
you give me some sense of your economic involvement throughout 
your non-public life career? Can you give me some sense what 
that might be?
    Mr. Crowley. In regards to what?
    Mr. King. What is your profession in the real world?
    Mr. Crowley. As was stated in the opening remarks of the 
Chairwoman, I was elected to the State legislature at 24. I was 
pretty much a year out of college when I was elected. So, 
therefore, I did not have the opportunity to be engaged in a 
full-time way in the private sector. Although the State 
legislature is a part-time position, and during that time I did 
own a business, a travel agency, in Queens County.
    Mr. King. That gives you a background, and it helps me 
frame this question. As I listed, one of the comments you made 
was one immigrant can take a job and create perhaps as many as 
two or three other jobs. Could you explain how that would 
happen?
    Mr. Crowley. What I am suggesting is that if an immigrant 
is producing a job and is living in a society, for instance in 
a neighborhood like Jackson Heights, Queens, which I represent, 
which is an immigrant community, those people have to eat. They 
have a job, they earn an income, they provide for their family. 
I am talking about they go to a grocery store, they have more 
demand, more supplies are needed. The people who stack those 
shelves, the people who work at the counter.
    Mr. King. Their spending creates two to three jobs then?
    Mr. Crowley. I am saying that potentially, theoretically, 
if you have more people here, more services are required to 
sustain those people, more jobs.
    Mr. King. I understand your answer, Mr. Crowley, and I 
thank you for that, because I didn't know the distinction was 
whether they were going to hire those two or three or whether 
their spending was going to create two or three. It is their 
spending.
    Mr. Crowley. I am talking in terms of common-sense theory.
    Mr. King. The ripple effect.
    Mr. Crowley. If there are more people here, there are 
more----
    Mr. King [continuing]. I would argue that when you spend a 
dollar, you don't create three, but that would be just our 
disagreement.
    More important, I think the central question is there is 
something that doesn't get answered here, and as the chief 
deputy whip on this issue--and I congratulate you for that--the 
question I am wondering if it gets asked and answered on your 
side of the aisle is, is there such a thing as too much 
immigration, legal or illegal?
    And the components of that are, can we fail to assimilate? 
Is there a number so large of cheap labor that it drags our 
economy down? Any of those components.
    Is there any limit to what might be supported or endorsed 
on your side? And if so, would you consider supporting and 
endorsing an overall cap where we could say, however we 
rearrange each one of the different kinds of visas we have 
here, in the United States there is going to be no more than X 
number for each individual year from here on out?
    Mr. Crowley. I appreciate the question, Mr. King, and I 
suppose those same questions were asked throughout the history 
of our country. They were certainly asked in the 1840's when 
the Irish were coming to this country, in the 1850's when the 
Germans came, and the Italians came later, and the Chinese. 
That has been a question, I think, that has been asked often in 
the history of the United States.
    And my perspective is, my observation is, the moment we 
stop growing as a Nation, we stop growing.
    Mr. King. How much is too many, though? I know the Irish 
are masters at filibustering, and I am one of those guys like 
that, so my apologies for that ability. But do we have an 
answer----
    Mr. Crowley. Well, I am not filibustering. I am answering 
the question, that I think that is a question that has been 
continued to be asked by many within the country that we know 
as the United States today that has expanded over the past few 
centuries, originally starting in the 13 colonies and moving 
west.
    Mr. King. As the whip, will your caucus support an 
overall----
    Mr. Crowley. Sorry?
    Mr. King. As a chief deputy whip, will your caucus support 
an overall cap so that we at least know how many we might be 
legalizing?
    Mr. Crowley. Well, that is way above my pay grade right 
now. But what I would suggest is that this is a fluid issue 
that we are going through, and I appreciate the hearings that 
are being held, that you are participating in. I do think these 
are the questions that need to be asked.
    Mr. King. I am sorry. I am just about out of time. I 
appreciate that.
    I want to turn to Mr. Rohrabacher and ask him if he wants 
to respond to any of those questions that I have laid out 
there, in the few seconds I have left.
    Mr. Rohrabacher. I think there is a distinct philosophical 
difference. I think the American people should pay attention to 
what positions people are taking.
    If they think that this massive flood of illegals into our 
country or, even if you just legalize them, that it is not 
going to cause a bigger flood to come in, please pay attention 
to who is advocating what. I believe that is to the great 
detriment of our people. It is hurting our education system. It 
is threatening our Social Security system.
    Our criminal courts in California are just crowded, the 
criminal justice system is breaking down, and this is caused by 
too large a flow of people into our country, an out-of-control 
flow. And it is not in the best interest of our country, and it 
is not creating better jobs or higher-paying jobs for our 
people. It is bringing wages down.
    Mr. King. I thank both of the honorable gentlemen and the 
Chair, and I yield back.
    Ms. Lofgren. The gentleman yields back.
    The gentleman from Minnesota, Mr. Ellison, is recognized 
for 5 minutes.
    Mr. Ellison. Thank you, Madam Chair.
    Let me also thank the two distinguished Members for 
presenting your ideas. Just a few questions that might be a 
little bit off the beaten path of this conversation.
    Could either of you explain what your views are in terms of 
how American trade policy impacts immigration? After the 
passage of NAFTA, in your view, did we see the low-cost, the 
cheap corn from the United States, have an impact on Mexican 
farms, which then led to immigration?
    I mean, we could build a wall as high as we want to, but if 
a Mexican farmer can't make it, aren't we driving them to the 
north? Do you guys have any thoughts on that?
    Mr. Crowley. I wasn't here for NAFTA.
    Mr. Ellison. You can't duck it like that. [Laughter.]
    Mr. Crowley. I am not going to duck it. What I am going to 
suggest, though, is I think there are a lot of contributory 
factors into what drives immigrants to the United States.
    You are speaking specifically about a trade agreement, 
which I believe NAFTA was Canada and Mexico. The Canadians are 
not coming here in droves. What you are suggesting is that the 
Mexicans are.
    What I would also suggest is that it is not just Mexicans 
who are coming across that border, that there are others who 
are looking for economic opportunity, that trade policy 
certainly can have an impact on a country's job market, but I 
also think there were other contributory factors. It could be 
discrimination, it could be religious discrimination, political 
issues. It could be a hurricane that wipes the economy of 
Central America off the map for a couple of years and drives 
people to come to the United States.
    I think it is a factor. I can't say specifically whether 
that particular trade agreement----
    Mr. Rohrabacher. Can I answer?
    Mr. Ellison. Yes.
    Mr. Rohrabacher. I was here. I voted for NAFTA.
    Mr. Ellison. Okay.
    Mr. Rohrabacher. And I voted for NAFTA because I felt it 
would help the American and the Mexican economy.
    And to the degree that it has helped the economy of Mexico, 
there are reasons some economists believe that the economy of 
Mexico would be at a lower level now if we wouldn't have passed 
NAFTA. To that degree, it helped solve some of the problem, 
some of the pull, that we have here into our country, where 
people who are poor in that country are coming here to better 
themselves.
    But our own policies, what benefits we provide the people 
of Mexico or any other country are just as important as the 
trade policies. Trade policies will determine a little bit 
about how prosperous the other country is, if they have the 
ability to earn their own living there. But if we actually 
offer all of the benefits and treasures that belong to the 
American people to anyone who can come over here, they are 
going to come.
    Mr. Ellison. I have heard that, and I thank you for sharing 
it.
    It sounds to me like both you gentlemen pretty much feel 
like trade is really not a factor in driving immigration. Or if 
it is, it is just one among a whole bunch of other factors, and 
we really can't say that American trade policy, particularly 
with Central and Latin America, is driving it.
    Mr. Rohrabacher. To the degree that----
    Mr. Ellison. Let me just tell you this. Mexico imports 
corn, okay, from the United States. And, to me, the missing 
piece of this conversation is this question of how some of our 
policies on trade may benefit multinationals, but those same 
policies impact people at the lower-income scale in both the 
United States and let's say Mexico for example, in ways that we 
really haven't begun to talk about yet.
    Mr. Crowley. Mr. Ellison, I wouldn't necessarily disagree 
with the point that you are making, although I think the new 
template that has been created under this Democratic caucus and 
this Democratic Party, in the trade agreements that will move 
forward, it will be remarkably different than whatever happened 
in the past.
    Mr. Ellison. I think you are right. I hope you are right 
about that.
    Mr. Crowley. And, number two, I also would suggest--and, 
you know, I watch Lou Dobbs from time to time--that I do notice 
that it moves from immigration to job loss, immigration to job 
loss, connecting the two somehow.
    Mr. Ellison. Right.
    Mr. Crowley. And not to say that there may not be some 
impact on both trade, on immigration, as it pertains to job 
loss here in the United States, but I do think there is a 
concerted effort to try to somehow mire the immigrant 
opportunity, blaming them for job loss that is taking place in 
Ohio or in Michigan.
    Mr. Ellison. The one thing that I want to just say that I 
agree with you wholeheartedly is that I definitely oppose the 
idea that somehow poor people in the United States or working 
people in the United States should look at immigrants as the 
people to blame for their woes. I think that the problem starts 
at a much higher level, and that is how we run our economy. And 
I think a lot of that has to do with globalization and trade 
policy.
    So that is just my speech.
    Ms. Lofgren. The gentleman's time is expired.
    The gentleman from California, Mr. Lungren, is recognized 
for 5 minutes.
    Mr. Lungren. Thank you very much.
    I would be one who wants us to get an immigration bill 
finally completed, but I find myself at times at odds with 
everybody involved in this.
    Mr. Crowley, I am trying to find out a little bit of a 
focus on where you are coming from and some that are aligned 
with you are coming from.
    As the Republican floor manager for Simpson-Mazzoli in 
1986, I was convinced at that time it was the best we could do 
and that we would have a barrier against the continuation of 
serious illegal immigration with employer sanctions and 
enforcement. And it is my observation that we didn't enforce 
and we didn't truly implement employer sanctions. And as a 
result, the other half of the bargain, which was to legalize a 
large number of people rather than settling the issue, became 
part of the attraction for more to come here.
    And now, instead of dealing with 4 million or 5 million 
illegal aliens, we are dealing with 12 million or 14 million. 
Mr. Rohrabacher has raised it to 20 million. I don't know by 
the time we finish the debate how high the number will be, but 
there are a larger number.
    So I would just ask you, Mr. Crowley, is that a concern, 
and should that be a concern--that is, the continuation of 
illegal immigration into the country?
    Mr. Crowley. What I would like to see, if I were in the 
driver's seat on this legislation, is that it needs to be done 
in a holistic approach. It cannot just be about addressing the 
issue of the 12 million undocumented without also addressing 
the porous nature of our border.
    And actually I think there is a third aspect to this, and 
that is helping people. It drives toward Mr. Ellison's 
comments, and that is helping people in their country of origin 
stay in their country of origin.
    So in response to your question, I do think it is an issue 
that needs to be addressed, but it also has to be done at the 
same time we have actual real enforcement.
    It is getting a little far afield from what we are talking 
about today, specifically, but I would envision and I hope that 
we have a conference report that we all get to vote on and the 
President has a chance to sign that it is one that recognizes 
that we need to take care of the security of the 12-million-
plus undocumented who live here in the United States and at the 
same time address the security of the boundaries of our 
country.
    Mr. Lungren. Okay. Well, in attempting to do that, the 
Senate bill, at least as it started on the floor, gave a 
January 1, 2007, date as the eligibility for those who would 
then be given a legal status. Would you agree with that date?
    Mr. Crowley. Well, I guess you have to start somewhere.
    Mr. Lungren. I understand that. I am asking whether you 
agree.
    Mr. Crowley. I have yet to determine whether or not that 
will be the date that I will support. That is the Senate's 
bill. The House will have a bill, and we will see what the date 
is there, and when we go to conference we will----
    Mr. Lungren. What would be the basis of your consideration 
for that?
    Mr. Crowley. I think at this point we should consider 
anyone who is in the country at the point the bill is passed as 
a matter of a practical approach to it.
    Mr. Lungren. You realize saying that would encourage people 
to come across now in hopes that a bill is going to pass.
    Mr. Crowley. I think that people are anticipating we are 
going to be passing a bill anyway. So, you know, the reality is 
we will have a new class of undocumented who are living in the 
United States.
    Mr. Lungren. Then you would disagree with those who say 
that if we make a legalization program available, it ought to 
be only for those who have actual true roots in the community--
that is, who have, in the balance of equities, been here long 
enough such that they have put their roots down, they have 
connected here for a sufficient period of time, that it would 
be difficult for them to go back.
    You would reject that notion?
    Mr. Crowley. Mr. Lungren, what I would suggest is that 
there will be a date in place. Again, you are asking me my 
personal feeling. There will be a date----
    Mr. Lungren. No, I understand that. I am trying to figure 
out what we need to do, what principles you would bring to bear 
on that----
    Mr. Crowley. And I will answer the question. What will 
happen is there will be a date in place, whether it is January 
1, 2007, or some other date, that will be the delineation mark 
as to when people would have had to have been here, and then 
move forward.
    I think that to suggest that we do anything other than that 
and to do nothing at all would just simply not deal with the 12 
million undocumented.
    Mr. Lungren. I am not suggesting doing nothing at all. I 
have a bill that says if they have been here for 5 years or 
more, because that is roots--I talked to one of our good 
Democratic friends and he says he supports that January 1st 
date. I said, ``That is not roots.'' He said, ``Well, you know, 
at least it is beginning to have some life there.''
    Ms. Lofgren. I think the word was ``sprouts.''
    Mr. Lungren. ``Sprouts.''
    I think we are all here, as far as I can tell, came from 
ancestors who came from somewhere else. So I think we are all 
dedicated to the sense of immigration. But there is also 
something we are dedicated to, which is the rule of law. And in 
coming to a bill, we have to somehow balance that love and 
dedication to an immigrant nation with a sense of a country of 
laws.
    And if we lose that, that could undermine--I mean, Father 
Hesburgh said a number of years ago something which I think 
would be a good guidance for us when he was the co-chair of the 
commission on immigration set up by Jimmy Carter. He said, ``We 
have to close the back door of illegal immigration so that we 
can keep the front door of legal immigration open.'' And I hope 
we remember that.
    Mr. Crowley. Well, I wouldn't necessarily disagree with the 
good father, but I would also suggest we have to do what is 
practical as well. And I don't know if it is necessarily 
practical to go just back 5 years. I think what we are creating 
is another class of undocumented in the United States that we 
will have as difficult a time dealing with as we are with the 
12 million right now.
    Ms. Lofgren. The gentleman's time is expired.
    And I am going to thank our colleagues for taking the time 
out of what we know is extremely busy days to share your 
testimony and your thoughts and also your willingness to stay 
and be a witness and answer questions.
    We are going to ask the second panel to come forward, if we 
may. I would like to introduce them.
    First on the panel, I am pleased to introduce Dr. Ruth 
Ellen Wasem, a specialist, some might actually say the 
specialist, in immigration policy with the Congressional 
Research Service at the Library of Congress. Dr. Wasem first 
came to Washington as a public health service fellow with the 
Office of Population Affairs in the U.S. Department of Health 
and Human Services. For 20 years, however, she has worked with 
the Congressional Research Service. Since 2000, she has led the 
policy analysts, attorneys and researchers who work on 
immigration. She earned her bachelor's degree from Muskingum 
College and both her master's and doctorate degrees from the 
University of Michigan.
    I am also pleased to welcome Dr. Ronald Bird, who is the 
chief economist and the director of the Office of Economic 
Policy and Analysis under the Assistant Secretary for Policy at 
the U.S. Department of Labor. Prior to his work at the Labor 
Department, Dr. Bird served as Chief Economist at the 
Employment Policy Foundation and at DynCorp's Consulting 
Services Division. He has held faculty positions at the 
University of Alabama, North Carolina State University, 
Meredith College, and Wesleyan College. He earned his 
bachelor's degree from Huntingdon College and his Ph.D. in 
economics at the University of North Carolina at Chapel Hill.
    I am also pleased to introduce Michael Hoefer, the director 
of the Office of Immigration Statistics, or OIS, in the Policy 
Directorate at the U.S. Department of Homeland Security. Mr. 
Hoefer began his work with OIS in 1982 and has led the office 
since 1997. He began his career in public service with the 
Bureau of Labor Statistics and was detailed at the U.S. 
Commission of Immigration during its operation. He graduated 
from Cornell University in 1976 with a degree in industrial and 
labor relations with a concentration in statistics.
    And, finally, we are pleased to welcome Charles Oppenheim 
to the Subcommittee. He is chief of the Visa Control and 
Reporting Division at the Department of State. Mr. Oppenheim 
has worked at the State Department for nearly 30 years, 
beginning as a consular officer in the Bureau of Consular 
Affairs. He is the agency's expert in visa database management 
and statistical reporting. A native of Richmond, Virginia, Mr. 
Oppenheim graduated from the University of Richmond.
    Now, as you know, your full written statements will be part 
of our formal record. We would ask that you summarize your 
testimony in about 5 minutes. When the yellow light goes on, 
that means you only have a minute left. When your time is up, 
if you could summarize, that would be great.
    This is a wonderful opportunity for us really to hear from 
the experts in our own Government about--no one knows better 
than you do what the actual statistics are. And so, I think 
your answers to our questions can be definitive, and for that 
we thank you, not only for being here today but for your public 
service, which does count a great deal to all of us in the 
Congress.
    So if we can begin, Dr. Wasem?

TESTIMONY OF RUTH ELLEN WASEM, Ph.D., SPECIALIST IN IMMIGRATION 
             POLICY, CONGRESSIONAL RESEARCH SERVICE

    Ms. Wasem. Thank you, Madam Chairman, distinguished Members 
of the Committee, for the opportunity to testify this 
afternoon. I am Ruth Wasem, as you said, a specialist in 
immigration policy at the Congressional Research Service.
    I am going to breeze through the written testimony I have 
prepared by highlighting just a few of the figures in that 
testimony.
    First, let's take a look at Figure 1, and that is on page 1 
in my written testimony. In that, you can see the trend lines 
in the foreign-born population. Now, this data is census data 
and population data that is based on those censuses and 
statistical samples. As you can see, we are at the highest 
point in our history in terms of the sheer number of foreign-
born, and in 2005 that was about 36 million.
    The main component of the foreign-born that I have depicted 
here are as follows: About 35 percent are estimated to have 
naturalized. This is based on their self-report. We estimate 
that about 30 percent in 2005 are legal permanent residents. 
About 31 percent are estimated to be unauthorized aliens, and I 
will talk about that a little bit more. And, finally, about 2 
percent are estimated--again, I am saying estimated as indirect 
estimation techniques--to be people who are here on legal 
temporary visas that allow them to stay here long enough to 
establish a residence. By that I mean investors, intra-company 
transfers, non-immigrants of that sort.
    Let's move on then to Figure 3, and this is on page 3 of my 
testimony, because this is a figure that depicts that 30 
percent I talked about that were legal permanent residents. 
These are the annual numbers of individuals who get LPR status, 
and it is a trend line from 1900 up until 2005. And as you can 
see, the LPR numbers at the beginning of this century are 
approximating what they were at the beginning of the 20th 
century.
    When we speak of LPRs, it is important to get a sense of 
what the components of that population are, and that is why I 
would like you to take a quick look at Figure 6, and that is on 
page 6 in my written testimony. This is the 2005 class of 
admission. And you can see quite obviously here that the 
largest single group of people who come into the country are 
family-based immigrants, 57.8 percent in that particular fiscal 
year. A distant second are the 22 percent who come in as 
employment-based.
    I am going to focus even more on those two classes in the 
next figures that I am going to highlight, and these are 
Figures 7 and 8 from the testimony. These show trend lines over 
the last decade in family-based admissions and employment-
based.
    In Figure 7, which are the family-based, you will see that 
the ones that are part of the preference category, which I have 
labeled as first, second, and third, and that is really the 
brothers and sisters of U.S. citizens, the adult children of 
U.S. citizens, and the immediate family of legal permanent 
residents, those individuals have come in at about the same 
rate over the last decade, but they are numerically limited.
    The category where we have seen the substantial growth are 
the immediate relatives, and that is the one category in the 
immigration act which is unlimited.
    When we look at the employment-based trends, which I have 
in Figure 8--and I have only done the top three preference 
categories because the other numbers are too small to discern 
in a figure such as this--you can see that we have growth over 
the entire decade in all the categories, but the main area of 
growth is in what we would call the third preference category. 
Those are the professionals, the skilled and the unskilled 
workers.
    Now let's turn to what I promised I would speak to, and 
that is figure 13, which is on page 15 in my report. And I am 
skipping way ahead to talk a little bit about the component of 
unauthorized migration.
    Because of the previous discussion, I will point out there 
is a variety of different demographers whose estimates I have 
in this chart. However, the thing they have in common is they 
are all working with the same basic data source, which is the 
Current Population Survey, and they are all using a similar 
methodology, a residual methodology. That way, I wanted 
something so we really could look at trends over time.
    As you can see, much like the other graphs I have shown 
you, the trend line is upward. In 2005, we had estimates 
ranging from 10.5 million to 11.1 million. The number that is 
thrown around today, of course, is 12 million.
    Let me briefly say what those components are. In terms of 
what I talk about as the unauthorized population, this is who I 
am precisely referring to. I am referring to people who entered 
this country without inspection, I am referring to people who 
entered this country with a fraudulent document, and the people 
who came here with a legitimate visa but overstayed the terms 
of that visa.
    Finally, I am going to just do a quick snapshot of 
something that we often neglect to talk about when we talk 
about immigrant admissions, and that is the grounds for 
inadmissibility.
    And on page 20 of my written testimony I present Figure 16. 
This time I am moving to State Department data. Before I have 
done census data, I used DHS administrative data. Now this is 
what the consular officers use. These are the number of 
immigrants in 2005 and non-immigrants that were denied a visa 
on the grounds for inadmissibility set in the immigration act.
    And you can see from this chart, trying to have an 
employment-based visa without a proper work authorization was 
the principle grounds. Public charge and having been removed in 
the past was the second and third most often grounds.
    I will conclude my remarks, and I look forward to your 
questions.
    [The prepared statement of Ms. Wasem follows:]
                 Prepared Statement of Ruth Ellen Wasem
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Thank you very much for really a very 
voluminous report which I read with great interest, and with 
the color charts it was very helpful.
    Dr. Bird?

TESTIMONY OF RONALD BIRD, Ph.D., CHIEF ECONOMIST AND DIRECTOR, 
  OFFICE OF ECONOMIC POLICY AND ANALYSIS, U.S. DEPARTMENT OF 
                             LABOR

    Mr. Bird. Thank you. I am tempted to yield my time to Dr. 
Wasem to continue.
    Madam Chairwoman and Members of the Subcommittee, thank you 
for the opportunity to testify here today. My name is Ronald 
Bird, and I am chief economist in the Office of the Assistant 
Secretary for Policy at the U.S. Department of Labor.
    I am here today at your request to provide information 
regarding demographics of the U.S. labor force.
    The American labor force is large, diverse and dynamic. At 
over 152 million workers in May of 2007, the U.S. labor force 
is the third-largest among the Nations of the world, behind 
only China and India.
    The U.S. labor market is healthy. Unemployment in May 2007 
was a low 4.5 percent. And we have enjoyed 45 consecutive 
months of job growth, with payroll employment growing by 8 
million jobs since the post-recession employment low in August 
2003.
    Unemployment today is below historical averages. Since 
1950, the unemployment rate has averaged 5.6 percent, compared 
to today's 4.5 percent.
    The U.S. labor force grew significantly over the past half-
century. Between 1950 and 2006, the labor force increased from 
62.2 million to 151.4 million, a 143 percent increase that saw 
89.2 million new workers absorbed into the economy.
    During the 1970's, the labor force grew at an average 
annual rate of 2.7 percent. Since then, the growth of the labor 
force has slowed to an annual average of 1.7 percent in the 
1980's and 1.2 percent since 1995.
    The Bureau of Labor and Statistics' projections show 
continuing declines in the rate of labor force growth with 
annual growth slowing to eight-tenths of 1 percent by 2014.
    At the same time, the immigrant labor force portion of the 
labor force is growing. Current population survey estimates of 
the labor force status of the foreign-born do not distinguish 
between the documented and undocumented population. However, we 
do know that immigrants as a whole are a significant and 
growing component of the U.S. labor force.
    In 2006, 23.1 million foreign-born workers comprised 15.3 
percent of the U.S. labor force. The foreign-born component has 
increased by 8.7 million since 1996. Foreign-born workers 
accounted for about half of the 17.3 million total increase in 
the labor force from 1996 to 2006.
    The unemployment rate for foreign-born workers was 4 
percent in 2006 compared with an average unemployment rate of 
4.7 percent for native-born workers on average over the 12 
months of 2006.
    Persons of Hispanic ethnicity comprised 50 percent of the 
foreign-born labor force in 2006, and 22 percent was Asian 
origin.
    In terms of educational attainment, 28 percent of the 
foreign-born labor force 25 years and older had not completed 
high school, compared with about 6 percent of the native-born 
labor force. About equal proportions of both the foreign-born 
and native-born had bachelor's degrees, about one-third of 
each.
    Median weekly earnings of Hispanic, foreign-born, full-
time-wage and salary workers were about 75 percent of the 
earnings of native-born Hispanics working full-time, while 
foreign-born workers with at least a bachelor's degree had 
median weekly earnings about identical to those of native-born 
college graduates in 2006.
    I hope it is helpful. I will be pleased to address your 
questions.
    [The prepared statement of Mr. Bird follows:]
                   Prepared Statement of Ronald Bird
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Dr. Bird, it is helpful. Thank you very much.
    Mr. Hoefer?

    TESTIMONY OF MICHAEL HOEFER, DIRECTOR OF THE OFFICE OF 
   IMMIGRATION STATISTICS (OIS), U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Hoefer. Good afternoon, Madam Chairwoman, Ranking 
Member King, and distinguished Members of the Subcommittee. 
Thank you for the opportunity to discuss the role of the Office 
of Immigration Statistics, OIS, at the U.S. Department of 
Homeland Security, to provide an overview of our recent 
immigrant population estimates and to answer any additional 
questions you may have.
    OIS is part of the DHS Policy Directorate and our mission 
is to lead the development of statistical information useful in 
making decisions and analyzing the effects of immigration in 
the United States. We publish reports each year on recent 
trends in legal immigration, persons naturalized, and aliens 
apprehended and removed from the United States. We primarily 
use administrative data collected through the DHS components.
    We also provide analyses and estimates to support policy-
makers as they work to understand immigration needs and trends 
before setting policy. For example, on the number of foreign 
residents in the United States by legal status, as already has 
been mentioned in most of the surveys, that information is not 
collected, so we need to estimate those numbers.
    I want to start by briefly summarizing our recent 
estimates, beginning with the number of persons who may be in 
the United States unlawfully. We at the OIS estimate that there 
were approximately 10.5 million unlawful residents in the 
United States as of January 1, 2005, and project that there may 
be as many as 12 million as of today.
    About 57 percent of the unlawful residents are from Mexico, 
and nearly half of the 12 million residents live in California, 
Texas, or Florida. The average annual net growth in the number 
of unlawful residents has been 500,000 per year since 1990. DHS 
has not estimated other characteristics of this difficult-to-
measure population.
    Turning to legal immigration, the DHS has granted lawful 
permanent resident status to an average of 1.1 million persons 
during the past 3 years. More than four out of 10 of these 
immigrants are immediate relatives of U.S. citizens who are 
admitted without limitation.
    The next leading categories are family-sponsored preference 
immigrants at about 19 percent, employment-based preference 
immigrants at 17 percent, and refugees and asylees at 13 
percent.
    About one of four immigrants derives their status through a 
spouse or parent. For example, an employment principal who 
comes into the United States may bring their spouses and 
children.
    We estimate there are approximately 11.6 million lawful 
permanent residents in the United States as of October 2004 and 
that 8 million were eligible to naturalize. Approximately 60 
percent of those who were admitted legally during the 1970's 
and 1980's have naturalized as of 2005.
    More recent immigrants are naturalizing sooner than earlier 
immigrants, though it is not known whether this will result in 
lifetime naturalization rates higher than 60 percent.
    About 33 percent of immigrants admitted before 1986 had 
naturalized after 10 years, while between 45 and 50 percent of 
immigrants admitted from 1992 to 1995 had naturalized after 10 
years of residence.
    In addition to the immigrants that have been admitted and 
are living in the United States, there are other aliens who 
have applied for but are waiting to obtain lawful permanent 
resident status. The total number of petitioners for LPR status 
who are waiting to immigrate must be estimated because there is 
little information available on the number with an approved 
petition who are already in the United States or on the number 
with a pending petition at USCIS who may be living either 
inside or outside the United States.
    My colleague from the State Department is going to talk 
about those who have approved petitions who are awaiting 
abroad.
    Thank you, Madam Chairman, for the opportunity to testify. 
I am happy to answer any questions you may have.
    [The prepared statement of Mr. Hoefer follows:]
                  Prepared Statement of Michael Hoefer
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Thank you.
    We will turn now to Mr. Oppenheim.

    TESTIMONY OF CHARLES OPPENHEIM, CHIEF, VISA CONTROL AND 
          REPORTING DIVISION, U.S. DEPARTMENT OF STATE

    Mr. Oppenheim. Hello. Chairwoman Lofgren, Ranking Member 
King, and distinguished Members of the Committee, it is a 
pleasure to be here this afternoon to answer your questions and 
provide an overview of the immigrant visa control and reporting 
program which is operated by the Department of State.
    The Department of State is responsible for administering 
the provisions of the Immigration and Nationality Act which 
relate to the numerical limitations on immigrant visa number 
use, and I will briefly describe that process.
    At the beginning of each month, the Visa Office receives a 
report from each consular office abroad listing the total of 
documentarily qualified immigrants who are subject to numerical 
limitation. These cases are provided by foreign state 
chargeability, preference, class, and priority date.
    The foreign state chargeability refers to the per country 
limitation to which the immigrant visa applicant will be 
charged and is generally the foreign state or dependent area to 
which the applicant was born. Exceptions are provided for a 
child or a spouse to prevent the separation of family members, 
as well as for an applicant born in the United States or in a 
foreign state of which neither parent was a native or resident.
    Alternate chargeability is desirable in the issuance of 
visas when a parent or spouse has a more advantageous place of 
birth than that of the applicant's. The preference is the visa 
class established by the Immigration and Nationality Act to 
which the applicant may be assigned based on relationship to 
U.S. citizens, legal permanent residents or employment status.
    Immigrant classifications fall into two basic categories: 
unlimited, such as immediate relatives, and numerically 
limited, such as family employment cases. The preference 
classes which are being discussed today are strictly the 
numerically limited.
    The priority date is normally the date on which the 
petition to accord the applicant immigrant status was filed.
    The Visa Office subdivides the annual preference and 
foreign state limitations specified by the Immigration 
Nationality Act into monthly allotments. The totals of 
qualified applicants which have been reported to the Visa 
Office are compared each month with the numbers available for 
the next regular allotment.
    The determination of visa number availability requires the 
consideration of several variables. These include past number 
use, estimates of future number use, return rates, and 
estimates of U.S. Citizenship and Immigration Services demand 
based on cut-off date movements.
    If sufficient numbers are available in a particular 
category to satisfy all qualified demand, the category is 
considered ``current.'' For example, if the monthly allocation 
target is 10,000 and we only have 5,000 applicants, then the 
category can become ``current.''
    Whenever the total of qualified applicants in a category 
exceeds the supply of numbers available for a particular month, 
the category is considered to be ``oversubscribed,'' and a visa 
availability cut-off date is established. The cut-off date is 
the priority date of the first qualified applicant who could 
not be accommodated for a visa number that month.
    For example, if the monthly target were once again 10,000 
and we had 25,000 applicants, then we would need to establish a 
cut-off date so that only 10,000 numbers would be allocated, 
and the cut-off date would be the priority date of the 10,001st 
applicant. Therefore, only persons with a priority date earlier 
than the established cut-off date are entitled to allotment of 
a visa number.
    Once the above factors have been taken into consideration, 
the cut-off dates for the following month are established. They 
are immediately transmitted to overseas posts and the U.S. 
Citizenship and Immigration Services Office and are also 
published in the ``Visa Bulletin'' and online at the consular 
affairs Web site.
    I have submitted a copy of the latest ``Visa Bulletin'' for 
the record.
    Visa allotments for the month that are transmitted to posts 
must be returned if they are not used, and the numbers are 
provided in priority date order with the oldest reported first.
    Citizenship and Immigration Services Office requests are 
based on an adjustment of status cases for which all clearance 
processing has been completed.
    The National Visa Center, which is located in Portsmouth, 
New Hampshire, provides administrative support for the U.S. 
embassies and consulates abroad that process immigrant visas. 
Approved immigrant visa petitions are sent by the U.S. 
Citizenship and Immigration Services directly to this center 
for initial screening, recordkeeping instructions to visa 
applicants prior to being forwarded to overseas posts for 
further processing.
    If an applicant's party date does not allow the case to be 
forwarded overseas, then the petition is stored at the center.
    As of March 27, 2007, over 2.7 million active family 
immigrant cases were on file at the National Visa Center and 
almost 60,000 employment-based applicants were on file at the 
center. These totals include both principal applicants and 
their derivatives and spouses since each requires the use of a 
visa number.
    I thank you for the opportunity to testify today and would 
welcome any questions.
    [The prepared statement of Mr. Oppenheim follows:]
                Prepared Statement of Charles Oppenheim
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               ATTACHMENT
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Thank you very much, Mr. Oppenheim.
    And thanks to all of the witnesses.
    We will now begin questions, and I will begin with some 
questions that I don't know, hopefully you can answer.
    Dr. Wasem, looking at your Figure 7, trends in family-based 
immigration, you outline the growth in the immediate relative 
category.
    And I remember during the markup of the 1996 Act there was 
a discussion, just a little trip down memory road, on what kind 
of constraints would be put on the spouses of American 
citizens. And one of the most conservative Members of the 
Committee all of the sudden said, ``Wait a minute. We are not 
going to do that. It has not ever been the job of the Federal 
Government to tell American citizens who they get to marry.''
    And that is really the origin, I think, philosophically, of 
the immediate relative category, that Americans are free to 
fall in love and marry whoever they want. But it is a slightly 
different issue with parents.
    Are you able to separate out the parents from the spouses, 
minor children, in that graph?
    Ms. Wasem. I do not have that data with me. I don't know if 
Michael might.
    Ms. Lofgren. Do you have it, Mr. Hoefer?
    Mr. Hoefer. In my testimony there is a Table 1, which shows 
the average annual numbers from 2004 to 2006, so it is recent 
data. But out of an average of 478,000 immediate relatives that 
come in each year of those 3 years, 93,000 were parents, 
284,000 approximately----
    Ms. Lofgren. Of the immediate relatives?
    Mr. Hoefer. Yes, were spouses, and 101,000 were children.
    Ms. Lofgren. Okay, that is very helpful. I overlooked that.
    Let me ask you, Mr. Hoefer, you mentioned naturalization 
rates are going up, and we had a discussion here several 
hearings ago when one of the witnesses suggested that the rate 
of naturalization was actually declining.
    Mr. Hoefer. I think probably part of the confusion here is 
I am talking about people who are legal immigrants.
    Ms. Lofgren. Who are able.
    Mr. Hoefer. Who are able. So if you are looking at 
population data, such as through the Census or the American 
Communities Survey, it includes illegal aliens, it includes 
people who aren't eligible.
    Ms. Lofgren. So your percentage is of the people who are 
legally able to apply to become a citizen, that rate is 
increasing.
    Mr. Hoefer. That is right.
    Ms. Lofgren. Okay. That is helpful. Thank you.
    Dr. Wasem, your Figure 14, I am wondering if we have this 
data. In the 1986 chart, it lists North and South America 
together as 23 percent, but in 2005 it shows, by the way, that 
immigration from Mexico is dropping substantially, as a 
percentage----
    Ms. Wasem. As a percentage.
    Ms. Lofgren [continuing]. As a percentage, from 69 percent 
to 56 percent. But Latin America is now a separate category, 
and inexplicably Canada is linked with Europe.
    Do we know if those are apples to apples instead of apples 
to oranges, how those trends go?
    Ms. Wasem. I don't. These were estimates, because the 1986 
data was done by different researchers using the same basic 
methodological approach and data sources, but they did cut the 
regions of the countries and the world differently.
    Ms. Lofgren. Does anybody else have that, or could it be 
easily obtained? I don't want to create a huge workload, but if 
there is a figure that is readily available, I would appreciate 
it.
    Ms. Wasem. If it was readily available, I probably would 
have used it.
    Ms. Lofgren. I see.
    Mr. Hoefer. You are referring to illegal as opposed to 
legal immigrants?
    Ms. Lofgren. Yes.
    Mr. Hoefer. I have some data here that I can share with you 
for 2000 versus 2005, but that is----
    Ms. Lofgren. Perhaps after the hearing, that can be 
provided.
    I am interested in the inadmissibility grounds on Figure 
16. By far, the greatest on the bar chart is immigration 
violations. And I am interested--I am sure it is many things, 
but one of the questions that people have suggested is that the 
3-and 10-year bars actually ended up being a substantial issue 
for immediate relatives. And you hear that the waivers are 
backing up and the like.
    Can you address that, Mr. Oppenheim? Do you know the 
answer?
    Mr. Oppenheim. Not specifically on that. I could get back 
to you with the data.
    Ms. Lofgren. I would appreciate that.
    Do you know, Dr. Wasem, on Figure 16?
    Ms. Wasem. I do not know. I am looking at my tables in the 
appendices, where I have some trend lines from 2000, 2002. And 
this is something that has changed over time in terms of the 
difference it makes, but I haven't gone far enough back.
    Ms. Lofgren. Well, again, I don't want to give a major 
research project to any of you, but if you have that 
information readily available, I would be very interested in 
receiving it.
    I just note, when we were at Ellis Island, before the 
hearing we went through a tour of the museum, and I wish I had 
taken a picture of it, but there was a plaque, and it said, in 
the year 1902, the population of the cities of New York, 
Chicago, St. Louis and several others--I don't remember all of 
them--75 percent of the population of those cities were either 
immigrants or the children of immigrants.
    Is that true in any city in America today? Do you know?
    Ms. Wasem. I wouldn't be surprised. I don't know.
    Ms. Lofgren. That is a surprise question. Perhaps the 
answer can come later.
    Ms. Wasem. Yes. It is worth looking up, though. We could 
look that up.
    Ms. Lofgren. Mr. King, it is your turn for 5 minutes.
    Mr. King. Thank you, Madam Chair.
    You have piqued my interest on a number of things here, the 
witnesses as well as the questioning you had. And I probably 
have a picture of that, if I could dig through my files.
    I would first turn to Mr. Hoefer, because I recall some 
numbers that were brought before this panel some time, a couple 
of weeks ago, with regard to the naturalization rate. And your 
testimony stated that U.S. census naturalization rates included 
also illegal population that were not eligible for 
naturalization.
    And the numbers that we had before this panel a couple of 
weeks ago were that in 1970 there was an 82 percent 
naturalization rate, and that incrementally dropped from 82 
percent down to the year--each census year, 1970, 1980, 1990 
and 2000. By the year 2000, they had gone down to a 13 percent 
naturalization rate.
    And so, as I hear your testimony on this, it would be an 
important distinction if one included illegal immigrants. And 
yet when I look at USCIS's report and it states here clearly 
that for the year 2002--and remember, the year 2000 had 13 
percent naturalization rate had gone from 82 percent to 13 
percent over that 30-year period.
    But 2002, the numbers show this: LPR population, 2002, 11.4 
million; population eligible to naturalize, 2002, 7.8 million; 
number of persons naturalized in fiscal year 2002, 573,000, 
which rolls out to be 7.3 percent.
    So that would indicate that the eligible population numbers 
from USCIS did not include those that were not eligible for 
naturalization.
    How would you respond to those numbers from USCIS?
    Mr. Hoefer. Well, everything you said was true.
    What we have done to get these naturalization rates is 
follow cohorts through time. So we looked at people that became 
in 1970, 1980 and followed them through time and matched them 
with their naturalization record.
    When you look at a point in time, you are looking at, if 
you use Census data, you are looking at people who are illegal. 
The CIS report that you were mentioning, there are many people 
over time that don't naturalize, but eventually we find that 
about 60 percent do. So some of those people, the 8 million, 
they are just newly eligible, so they haven't naturalized yet. 
It takes them time.
    What we find is about half of those who are going to 
naturalize do so within the first 10 years, but there are 
people that naturalize----
    Mr. King. That is by their own report, though, if I also 
hear you testimony on that.
    Mr. Hoefer. Yes.
    Mr. King. And this USCIS report would be statistically 
those that are eligible for naturalization. The user survey 
numbers are----
    Mr. Hoefer. No, they are not. What we have done is we have 
matched the individual record of legal immigration to the 
individual record of naturalization.
    Mr. King. Would you then disagree with a conclusion that 
one can draw from USCIS's report that it goes from 82 percent 
in 1970 down to 7 percent in the year 2002?
    Mr. Hoefer. I don't think that the USCIS report says that.
    Mr. King. I have got it here, and I would be happy to 
introduce it into the record. I ask unanimous consent to do so.
    Mr. Hoefer. Okay.
    Mr. King. But I would just say that I really wish we didn't 
have this kind of a trend to look at. And even if we are 
looking at, whatever is a number between yours and mine, it is 
a bad sign from an assimilation prospect that we don't see more 
enthusiasm for naturalization. That is the conclusion that I 
would draw, and maybe draw a truce there on that disagreement.
    Mr. Hoefer. Respectfully, I believe the naturalization rate 
is increasing, and what is happening is that people do emigrate 
and leave the country. I think the census data shows people who 
immigrated in 1980 who are still here, and many of those people 
do naturalize. So that is the reason you see that trend going 
down.
    But it really, if you look at the cohorts, the 
naturalization rate is----
    Mr. King. We will have both numbers in the record, Mr. 
Hoefer, and I appreciate your position on this.
    And I turn to our economic analyst here, Mr. Bird, and I 
want to put a little philosophy out there to you. And since you 
are an analyst, not just a person who reports statistics but 
someone who can analyze it, would you agree or disagree with 
this statement that I am about to make, and that is that the 
sum total of the economic strength of a Nation is directly 
proportional to the average individual productivity of its 
people?
    Mr. Bird. Well, I think that is a reasonable statement to 
make. Human capital is a very important part of the total 
productive assets of a Nation. And certainly our prosperity, 
our ability to grow, to produce the goods and services we 
produce, depends on our productivity, and that depends on both 
our physical capital and our human capital.
    Right now, today, or in the latest data I have calculated 
is 2004, we produce about $40, a little over $40 of output per 
hour of effort in America, and that is almost the highest in 
the world, and that is the product of our human and physical 
capital, combined effort.
    Mr. King. I have a follow-up question in writing. I have to 
yield back to the Chair.
    Ms. Lofgren. The gentleman's time has expired.
    The gentleman from California, Mr. Lungren?
    Mr. Lungren. Thank you very much.
    Dr. Bird, one of the things that has bedeviled me for a 
long time, from the first time I was in Congress to this time 
in Congress, is the significantly higher unemployment rates we 
have in the African-American community than the rest of the 
community, and particularly with young, Black males.
    When I was in my other job as attorney general of 
California, the figure was often brought up to me that we have 
a disproportionate percentage of young, Black males that are 
incarcerated. And as we would examine that problem, one of the 
suggestions was a lack of economic opportunity.
    I would like to ask a question about whether you have given 
us some figures about the overall African-American unemployment 
rate. Do you have the unemployment rate for males, 20 to 35, in 
the various categories that you have that is White, African-
American, Asian and Hispanic?
    Mr. Bird. I do not have those numbers with me today, but 
they are available, and I could provide those.
    Mr. Lungren. Would it be correct to say that African-
American unemployment for males from 20 to 35 is significantly 
higher than that for Whites and for Asians?
    Mr. Bird. I would presume that may be the case, yes.
    Mr. Lungren. Do you have any figures that break down 
according to industry? I would be very interested in the 
construction industry.
    Mr. Bird. Congressman, there is data that can be compiled, 
and some of this is already tabulated routinely by the Bureau 
of Labor and Statistics, that reports from the current 
population survey the percentage of people who are unemployed 
with respect to their previously reported industry. That could 
be compiled.
    Mr. Lungren. Let me tell you where I am trying to go, and 
maybe you can give me some help on where I would get the proper 
information.
    Back in the early 1970's, I worked in construction while I 
was going to law school, and it was in southern California. And 
it was unusual on the construction job site, at least from my 
observation in southern California, for people who were 
speaking other than English and were Hispanic, and in some 
cases, just because of conversations I had with them, were in 
this country without the benefit of papers.
    We had Hispanics working in the workforce, but they were 
second and third generation in construction, and it appeared to 
me, and maybe I am wrong, that African-Americans were a higher 
percentage in the workforce in construction then than they are 
now.
    And again, this anecdotal. Now it appears to me we have a 
far greater percentage of Spanish-speaking individuals in the 
construction trades than we had then, a significant increase in 
that. Obviously I don't go around and ask people, you know, are 
you here legally or not here legally, but it has been suggested 
to me that a significant percentage are here illegally.
    And as I look at an immigration fix, I am one of those who 
believes we have to have a temporary worker program. I think we 
have proven that we need that in the area of agriculture. But I 
am one of those who believes that perhaps you could show a loss 
of job or job opportunity for the African-American community, 
particularly young males in construction, as a result of the 
presence of illegal aliens in the United States.
    I don't have data to try and be able to assess that. Could 
you give me some help as to what data might be available so at 
least I could have something to look at to see whether the 
trends are in the direction I think they are or whether my 
assumptions or conclusions have no merit?
    Mr. Bird. Well, of course at this time I don't have any 
data with me to answer whether your presumption is correct or 
not. However, at least some of what you are asking for I 
believe can be addressed by looking at our current population 
survey and perhaps some other data survey sources with our 
colleagues at Bureau of Labor and Statistics. And I would be 
happy to work with your staff subsequently to develop that and 
get that to you.
    Mr. Lungren. I would appreciate that. That would help us, 
because we are in a very controversial, to say the least, 
controversial subject here. And one of the elements of it is a 
temporary worker program, and one of those elements is what 
kind of a temporary worker program.
    And as you analyze it, you hear those that say illegal 
immigration has no impact whatsoever on job opportunities for 
native-born Americans or Americans who are here on a legal 
basis and other who say it has everything to do with it.
    And I have a sense of what I believe is true based on my 
own observations and anecdotal information, but I don't have 
any raw data or examined data.
    Mr. Bird. The data that I am thinking about will not 
address the documented versus undocumented. But it may be 
possible to develop some data that addresses the construction 
industry in particular in terms of race, ethnicity, foreign-
born status----
    Mr. Lungren. What about native-born versus----
    Mr. Bird. Native-born versus foreign-born status, perhaps, 
but not going back as far because that distinction has not been 
collected in the data except since 1997, I believe, so we have 
a shorter time frame there on that, and the ethnicity has not 
been collected for that every year.
    Mr. Lungren. Thank you very much, Madam Chair, and I hope 
that we can work with you.
    Ms. Lofgren. The gentleman's time is expired. And, really, 
all time is expired.
    I would like to thank these witnesses.
    I will note that, without objection, Members will have 5 
legislative days to submit additional written questions to each 
of you, and the Committee will forward those questions. We ask 
that you answer as promptly as you can.
    I will just note, Mr. Hoefer, that you didn't have a copy 
of the document that the Ranking Member--I am not faulting the 
Ranking Member, but I would like to send that to you and ask 
you to just give us your answer in writing.
    Mr. Hoefer. Certainly.
    Ms. Lofgren. And we will share it with all the Members.
    I would note that we have had a series of hearings since 
February, 15 hearings, and this hearing today has helped us 
with the statistics and some of the numbers. I think that at 
this point, although I went into this proces thinking that I 
knew something, and I did, I certainly have learned some things 
as well.
    And the testimony of a great number of enormously 
intelligent and scholarly people are posted on our Web site. 
Anybody who wants to get an education on this subject is 
invited to check it out.
    At this point, we are hoping that we are able to move 
forward. I hope that we are able to move forward with 
comprehensive immigration reform. Your testimony today has been 
a part of that, and we thank you very much.
    This hearing is adjourned.
    [Whereupon, at 4:19 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
 Subcommittee on Immigration, Citizenship, Refugees, Border Security, 
                         and International Law
    Today we continue these series of hearings dealing with 
comprehensive immigration reform. This subcommittee previously dealt 
with the shortfalls of the 1986 and 1996 immigration reforms, the 
difficulties employers face with employment verification and ways to 
improve the employment verification system. On Tuesday May 1, 2007 we 
explored the point system that the United Kingdom, Canada, Australia, 
and New Zealand utilize, and on May 3, 2007 the focus of the discussion 
was on the U.S. economy, U.S. workers and immigration reform. Last week 
we took a look at another controversial aspect of the immigration 
debate, family based immigration. Today we continue the vital task of 
eliminating the myths and seeking the truth. Last Wednesday's hearing 
dealt with probably the most crucial aspect underlying the immigration 
debate, an immigrant's ability to integrate, and assimilate into 
American society. Last Thursday we tackled another pressing topic, the 
practical issue of the impact of immigration on States and Localities. 
On Friday May 18, 2007 we discussed the issue of the ``Future of 
Undocumented Immigrant Students,'' and on May 24, 2007 we examined the 
``Labor Movement Perspective'' on comprehensive immigration reform. 
Today we will examine the perspectives of the business community.
    Much of the rhetoric that those in the anti-immigrant camp have 
repeated in their efforts to deter comprehensive immigration reform is 
based in pure ignorance. Webster's dictionary defines ignorance as, 
``1. without knowledge or education. 2. Displaying lack of knowledge or 
education. 3. Unaware or uninformed: Oblivious.'' When I hear the 
rhetoric of those individuals in the anti-immigrant camp this very 
definition comes to mind, because either these individuals are actually 
without knowledge, willfully display a lack of knowledge, are simply 
uninformed, or just oblivious to the facts.
    Individuals in the anti-immigrant camp consistently promote 
misconceptions about the undocumented population that serve this debate 
no justice. For example many argue that illegal immigrants are a burden 
on our social services, they are criminals, they are ``taking'' 
American jobs, they hate America, and they are harming our economy, and 
depressing the wages of American workers.
    Over the last month and a half we have debunked all of these myths. 
Fact of the matter is that most illegal immigrants do not utilize 
social service programs out of fear of being detected; they have an 
incarceration rate that does not compare to those of Native born 
individuals; the concept that they are taking jobs conflicts with all 
the data that suggest that there is a labor shortage in the 
agriculture, construction, and service industries; individuals who come 
here to live the American dream cherish the opportunity and their 
children are as American as apple pie; and we have heard testimony 
before this subcommittee that illustrates the fact that immigration 
benefits our economy, and the impact of immigration on wages is small 
if any.
    Along those same lines the biggest dispute regarding immigration 
statistics is the actual number of undocumented workers who are present 
here in the United States, the estimates range from 12 million to 20 
million. We will hear testimony from Dr. Ruth Ellen Wasem from the 
Congressional Research Service who will help us discover the truth. For 
example, according to the Census Bureau there were 36 million foreign 
born people who resided in the United States in 2005. A further look at 
this population reveals that 34.7% of these individuals were 
naturalized, 32.7% were Legal Permanent Residents, 2% were temporary, 
and 30.7% were unauthorized. These statistics seem to verify the fact 
that there are about 12 million undocumented workers here in the United 
States as opposed to 20 million. I look forward to the testimony of our 
witnesses, Madam Chair I yield back my time.
   Letter to the Honorable Zoe Lofgren, Chairwoman, Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and International 
  Law, from a majority of the minority Members of the Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and International 
                Law requesting a Minority day of hearing
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

       Prepared Statement of the the Honorable Dana Rohrabacher, 
       a Representative in Congress from the State of California
    I appreciate the opportunity to testify. As reliable statistics on 
illegal immigrants are notoriously hard to come by and verify such an 
open discussion as this is necessary.
    Contrary to the image many are trying to promote, illegal 
immigration has had a devastating financial impact on Social Security.
    More than half of illegal immigrants in our country work for cash 
under the table. So these illegal immigrants do not pay into the Social 
Security system. And since they are paid cash, the employers do not pay 
their contribution into the Social Security system either.
    Another negative effect is that jobs which could be filled by 
American citizens and legal immigrants are taken away. Without a pool 
of available illegal immigrants employers would be forced to hire legal 
applicants and cover them under Social Security. So Americans are 
losing jobs to illegal aliens who aren't paying their fair share into 
the Social Security system.
    Corresponding to this, a flow of illegal labor into our country 
brings down wages in general. Employers who might have paid $10 or $12 
dollars an hour now pay lower wages, which then results in lower 
contributions to the Social Security system.
    There are those, of course, who think the solution is to legalize 
all the illegals in the United States, and this will solve the Social 
Security crisis. In fact, legalizing the status of those here illegally 
will make the Social Security challenge facing America dramatically 
worse.
    Any plan that would specifically give Social Security to those who 
have been working in this country is an invitation for fraud on a 
massive scale. What would stop anyone from claiming they worked under a 
false Social Security number? Hundreds of thousands of people pay into 
Social Security under a 000-00-0000 number, how can you prove who used 
that fraudulent number and who did not?
    We already have a huge problem with identity theft and fraudulent 
identification. Allowing those who have worked illegally in the United 
States to participate in Social Security exponentially increases the 
incentive for fraud.
    Another overlooked consequence is the survivors' benefits and 
disability aspects of the Social Security system. What would stop 
anyone from claiming ``My spouse worked here under this false number, I 
am his widow, these are his children, please start sending the 
survivors benefits we are now entitled to.''
    Remember, billions of people around the world have NO retirement 
whatsoever. Why assume that only younger immigrants will come into the 
United States? Why wouldn't someone in their 50's think ``I could work 
for ten years in the United States, and the Social Security payment 
would let me live well back home.''
    Furthermore, many people who will be legalized under several 
different proposals are poor and low skilled. In fact over half of 
illegal immigrants do not even have a high school education. The 
inconvenient fact is Social Security pays out more in benefits, 
proportionally, to lower wage workers than higher wage workers. The 
projections I have seen from Social Security assumes immigrants have 
the same general earning potential as native born Americans, and they 
do not. These illegal immigrants will receive far more from the system 
than they paid into it, creating a huge threat to the viability of the 
Social Security system in the long run.
    The last and most significant point is this: In 1986, after being 
told it would only legalize about 1 million people, 3 million illegal 
immigrants ended up being granted amnesty. It is now 20 years later, 
and the current illegal immigrant estimates range from 12 to 20 million 
people. The 20 million figure comes, not from a government source, but 
from a private study conducted of the monies sent back through 
remittances to in Central American countries.
    Is there any doubt legalizing the status of those here illegally 
will result in a flood of new illegal immigrants into our country. 
Permitting these legalized immigrants into the Social Security system 
will turbo-charge the flood of illegals into our country.
    If we legalize 12 to 20 million people now, there will be 45 to 60 
million illegal aliens here in 2027. No fence, no wall, no minefield, 
no system will keep illegal aliens out of the country if we give them 
the reasonable hope that generous government benefits, including 
retirement, can be theirs if they can just get across the U.S. border 
and wait us out. Under such a strain our Social Security system cannot 
survive and will collapse. Being irrationally benevolent to illegals is 
a crime against our own people.
          Prepared Statement of the Honorable Joseph Crowley, 
        a Representative in Congress from the State of New York
    Thank you for inviting me here today. As you point out, I have a 
particular interest in the issue of immigration as the son of an 
immigrant as well as the grandson of immigrants. And as duly noted by 
Chairwoman Lofgren, Majority Whip Clyburn has appointed me as Chief 
Deputy Whip to work on this particular issue. Therefore, I am very 
happy to join you today and speak on this issue.
    I strongly believe in comprehensive immigration reform and seem to 
have a more optimistic view of the contributions of immigrants to the 
United States economically. This must be about
    looking forward, not backwards--looking at where we are going to be 
in years to come, and not where we are today.
    Today, I am not here to criticize the Senate bill in any way, as 
they are working through it as we speak. It is, however, my hope that 
the Senate passes a bill so that the House can take it up, pass its 
bill, and move to conference in order to get real, comprehensive 
immigration reform passed.
    As I testify before you today, I would like to highlight the 
Congressional Budget Office (CBO) Cost Estimate report which shows that 
comprehensive immigration reform is essential to the growth of our 
economy.
    It is imperative that we pass a Comprehensive Immigration Reform 
bill this year in order to secure out borders, sustain a strong 
economic future in the United States, and ensure that our country 
remain a haven for those who seek freedom, opportunity, and a better 
life for themselves and for their families.
    Immigration does not necessarily have to be a drain on the economy, 
as many would have you believe. Immigrants are not a drain on tax 
payers and the economy. In fact, they improve many aspects of our 
economy: adding to job creation, increasing our national revenue 
through greater receipts of Social Security payroll taxes, which are 
classified as off-budget.
    Look at the jobs they fill, the money they spend, and they jobs 
they create. They are essential to our nation's future prosperity. As 
Leon Sequiera, Assistant Secretary for Policy for the U.S. Department 
of Labor stated, ``Everyone who comes to America as an immigrant gets a 
job, but that doesn't mean they necessarily displace someone else in 
the marketplace. They may take a job that, in turn, leads to the 
creation of a job or two or three jobs.'' We have an expanding 
marketplace and an economy that continues to grow.
    The growth of the foreign-born workforce has no produced 
significant adverse effects on native-born workers. Unemployment rates 
for all groups have gone down and wages have increased. As Mr. Sequiera 
pointed out, there are 4.1 million job openings in the United States, 
with new job vacancies opening faster than they are being filled.
    At the Summit on Retirement Savings hosted by the United States 
Department of Labor, Alan Greenspan, the former Federal Reserve Board 
Chairman stated, ``The larger our workforce is in the year 2010 and 
beyond, the easier producing goods and services for both retirees and 
active workers will be. Immigration policy will therefore be a key 
component of baby-boom retirement policy.''
    For example, people are not joining the workforce at the same rate 
as they were in the 1950s, the Baby-boom era. Economically, passing 
comprehensive immigration reform is essential because it will allow 
more individuals to join the workforce, thereby adding to our economy 
and the benefits we all enjoy.
    This year, it was widely reported that undocumented immigrants in 
New York and throughout the nation filed taxes returns in record 
numbers to start a paper trail with the prospect of Congress 
overhauling our immigration system. This only proves that comprehensive 
immigration reform holds the promise of getting more individuals, even 
those without official documentation, to voluntarily pay into the 
system rather than remain invisible outside of it.
    Undocumented immigrant workers already pay an estimated $7 billion 
into the Social Security system. There can be no better incentive than 
a common-sense immigration policy to encourage more individuals to pay 
taxes in the hope of getting a foothold in the climb towards 
naturalization. Granted, I agree that some of the undocumented workers 
today are paid off the books. Some use false Social Security numbers or 
false taxpayer I.D. numbers to pay into a system that they will not 
necessarily get a benefit from in the future. It has yet to be 
determined how we compensate the undocumented individuals in the United 
States who have already contributed toward the Social Security system.
    Additionally, immigration will be the primary source of new skilled 
workers for the manufacturing sector--filling 10 million new jobs by 
the year 2010. An inadequate labor force would accelerate the transfer 
of American productive capacity and well-paid manufacturing jobs 
overseas. Regardless of what Lou Dobbs says, he does not speak in 
facts, but peddles fear.
    Look at my district, for instance. Look at my city. It is full of 
foreign corporations who hire Americans and assimilating immigrants 
alike. All of these corporations have been beneficial to our economy. 
As Alan Greenspan stated, ``Failure to attract enough labor through 
immigration will result in lower gross domestic production growth by at 
least 3 percent in 10 years and at least 17 percent in 30 years. 
Immigrants were crucial to the job and labor force growth in the 1990s. 
Furthermore, the ``New Economy'' of the last decade was overwhelmingly 
dependent on male immigrant workers.''
    So in the end, Madam Chair, I applaud the work that you are doing 
in attempting to develop a comprehensive immigration reform bill--one 
that takes into account the integrity of our borders and the need to 
end illegal immigration as we know it today. And doing so with a 
practical approach that will improve the economy of the United States, 
the lives of the millions who are undocumented here today, who want 
nothing more than a better way of life for themselves, their families, 
and for all Americans.
   ``Senate Amendment 1150 to S. 1348, the Comprehensive Immigration 
Reform Act of 2007, As amended by the Senate through May 24, 2007,'' a 
  Congressional Budget Office Cost Estimate, published June 4, 2007, 
                 submitted by the Honorable Zoe Lofgren
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  ``Helping Immigrants Become New Americans: Communities Discuss the 
 Issues,'' published by the U.S. Citizenship and Immigration Services, 
                 submitted by the Honorable Steve King
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Answers to Post-Hearing Questions from Ruth Ellen Wasem, Ph.D., 
    Specialist in Immigration Policy, Congressional Research Service
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Answers to Post-Hearing Questions from Ronald Bird, Ph.D., Chief 
 Economist and Director of the Office of Economic Policy and Analysis, 
                        U.S. Department of Labor
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Answers to Post-Hearing Questions from Michael Hoefer, Director of the 
  Office of Immigration Statistics (OIS), U.S. Department of Homeland 
                        Security, with Addendum

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ADDENDUM
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Answers to Post-hearing Questions from Charles Oppenheim, Chief, 
     Visa Control and Reporting Division, U.S. Department of State
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Additional Answer to Question posed during the Hearing by the Honorable 
 Zoe Lofgren from Charles Oppenheim, Chief, Visa Control and Reporting 
                   Division, U.S. Department of State
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>
</pre></body></html>
